HHS/OIG-Audit-"Audit of Office of Refugee Resettlement Grant No. 90RN0015 for the period September 30, 1997 through September 29, 2000"(A-10-09-00013)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Office of Refugee Resettlement Grant No. 90RN0015 for the Period September 30, 1997 through September
29, 2000," (A-10-01-00013)
November 28, 2001
Complete
Text of Report is available in PDF format (6.32 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review of Grant No. 90RN0015, a discretionary grant awarded by the U.S. Department
of Health and Human Services, Administration for Children and Families.  Asian Counseling & Referral Services
(ACRS), was awarded a $450,000 grant for the project period from September 30, 1997 through September 29, 2000, $150,000
for each of the 3 years of the period.  The grant was awarded to provide refugee assistance that included citizenship
classes, help with completion of naturalization applications, and referral services.  The objective of our audit was
to determine if the ACRS accomplished the objectives of the grant.  The ACRS did not achieve the results planned for
the 3-year project period.  Additionally, we were unable to verify the accomplishments that were reported because
ACRS neither effectively maintained supporting records nor adequately monitored its subrecipients.  We recommended
that the ACRS improve its record keeping procedures and more closely monitor its subrecipients.  The ACRS concurred
with our recommendations.